No. 20-482

 

In The Supreme Court of the United States

 

HERBERT H. SLATERY III, ATTORNEY GENERAL, ET AL.,
Petitioners,

v.

ADAMS & BOYLE, P.C., ET AL.,
Respondents.

 

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

CERTIFICATE OF SERVICE

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 29.5(b), hereby certifies that one copy of the Amicus Brief of the American Center for Law
and Justice in Support of Petitioners has this day been served upon all parties required to be
served, by first-class mail, postage prepaid, mailed from Annandale, VA, to counsel at the
addresses below. In addition, a PDF version of this document is being transmitted electronically
to counsel listed below.

Sarah Keeton Campbell Autumn Chandra Katz
Tennessee Office of the Attorney General Center for Reproductive Rights
War Memorial Building 199 Water Street, 22"! Floor
301 6th Avenue North New York, NY 10038
Nashville, TN 37243 akatz@reprorights.org
Sarah.Campbell@ag.tn.gov (917) 637-3723
(615) 532-6026

Counsel for Petitioners Counsel for Respondents

4

  

“ Walter M. Weber

Nov. 12, 2020

 
